March 28, 2003

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

JERRY D. LANE
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT:     Audit Report – Highway Network Scheduling – Capital Metro Area
             (Report Number TD-AR-03-007)

                                     Background
On July 5, 2002, the Office of Inspector General (OIG) announced an audit of highway
network scheduling (Project Number 02YG017TD002). The announcement responded
to a request from the vice president, Network Operations Management. This report is
one in a series of reports. It focuses on the Capital Metro Area.




             Highway contract originating route at Washington Bulk Mail Center,
                         Landover, Maryland, November 8, 2002.
Highway Network Scheduling – Capital Metro Area                                 TD-AR-03-007



                         Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway
contract routes, and to identify opportunities for cost savings. The vice president,
Network Operations Management, provided a list of plant-to-plant highway contract
routes he wanted considered for elimination or consolidation. A total of 1,689 trips were
operated under the 83 Capital Metro Area contracts. In preparation for our work, we
provided the transportation managers in the Capital Metro Area with the list of contracts
we intended to audit. During our work, we interviewed officials at headquarters and in
the Capital Metro Area; reviewed relevant Postal Service policies and procedures;
visited six plants; interviewed managers and employees; observed and photographed
operations; analyzed data in the Postal Service Transportation Information Management
Evaluation System, evaluated mail volume and critical entry times for First-Class and
Priority Mail; and analyzed all 1,689 trips. We did not evaluate the reliability of the data
obtained from the Transportation Information Management Evaluation System. Work
associated with the Capital Metro Area was conducted from July 2002 through
March 2003 in accordance with generally accepted government auditing standards, and
included such tests of internal controls as were considered necessary under the
circumstances. We discussed our findings with appropriate management officials, and
included their comments, where appropriate.

                                   Prior Audit Coverage

Our audit report, Highway Network Scheduling – Pacific Area (Report
Number TD-AR-02-003, dated September 24, 2002), identified 158 highway
contract trips we thought could be eliminated, and consequently result in savings to
the Pacific Area of about $4.5 million. Management agreed with 124 trip terminations,
but subsequently made certain substitutions they considered appropriate. Although
local plant managers disagreed with 34 trips we identified, management agreed to
reassess the trips, retain or eliminate trips as appropriate, and notify the OIG of all
cancelled trips, as well as the resulting savings. We considered management’s actions
responsive to our recommendations.

Our audit report, Highway Network Scheduling – Northeast Area (Report
Number TD-AR-03-002, dated November 25, 2002), identified 18 highway contract
trips we thought could be eliminated, and consequently result in savings to the
Northeast Area of about $777,000. Management agreed with the intent of our
recommendations and made certain substitutions they considered appropriate.
Although local plant managers disagreed with eight trips we identified, management
agreed to reassess the trips, retain or eliminate trips as appropriate, and notify the OIG
of all cancelled trips, as well as the resulting savings. We considered management’s
actions responsive to our recommendations.




                                                  2
Highway Network Scheduling – Capital Metro Area                                   TD-AR-03-007



                                         Audit Results

Unnecessary Highway Contract Trips

Our audit revealed that the Postal Service could save about $1.1 million over the term of
existing Capital Metro Area highway contracts by canceling 34 unnecessary trips. The
trips could be terminated because trip mail volume was low, and mail could be
consolidated on other trips without negatively affecting service. The cost savings we
identified were net of contract cancellation fees totaling approximately $135,000.

After we completed our analysis, we discussed the 34 trips with plant managers. The
managers agreed 20 trips should be cancelled, but disagreed with our assessment of
another 14 trips. The trip cancellation proposals are summarized below:

                                TRIP CANCELLATION PROPOSALS

                   CANCELLATION                   NUMBER                IDENTIFIED
                     CATEGORY                     OF TRIPS   APPENDIX     SAVING


        Trips we identified during audit work
        with which plant managers agreed.             20        A         $708,949

        Trips we identified during audit work
        with which plant managers disagreed.          14        B           435,269

        Total                                         34                 $1,144,218

The plant managers disagreed with the 14 cancellation proposals for various reasons—
generally that eliminating the trips would reduce operational flexibility or affect service.
We continue to believe the potential for trip cancellation without jeopardizing service or
operational flexibility and savings exists.

Recommendations

We recommend the manager, Capital Metro Operations:

   1. Cancel the 20 trips, which plant managers agree are unnecessary.

   2. Reassess the 14 trips plant managers feel are necessary, cancel trips indicated
      by the reassessment as unnecessary, and document the reasons for retaining
      the other trips.




                                                  3
Highway Network Scheduling – Capital Metro Area                             TD-AR-03-007



Management Comments

Management agreed in substance, with recommendations 1 and 2. They stated that of
the 34 trips we recommended for termination, they had already eliminated 16 trips and
had termination action pending on 8 others. They explained that network management
was a dynamic process and that transportation requirements continually changed. They
stated that they made substitutions and adjustments to our recommendations that they
considered appropriate, and consequently, thought ten trips we recommended for
termination might still be needed. Regarding monetary findings, they explained they
could not validate our projections at this time because the amounts were subject to
numerous variables. As an example, they explained that some cancellation fees we
considered were negotiated to zero. They emphasized that their commitment to reduce
highway transportation costs was ongoing with such projects as the Breakthrough
Productivity Initiative, and stated that they would continue their effort to optimize
transportation networks. Finally, they stated that they would provide documentation
supporting their work and their assessment of potential monetary savings.
Management’s comments, in their entirety, are included in Appendix C of this report.

Evaluation of Management Comments

Management’s comments are responsive to recommendations 1 and 2. We consider
the actions taken and planned sufficient to address the issues we identified.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at 703-248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    Susan M. Duchek




                                                  4
Highway Network Scheduling – Capital Metro Area                                                                TD-AR-03-007



                         APPENDIX A. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                    WHICH AREA MANAGERS AGREED
Effective
Date of
Last         Highway                                                                            Estimated              Estimated
Contract     Contract      Trip                                                                 Contract     Indemnity Cost
Change       Route         Number           Origin/Destination                                  Costs        Fees      Savings
3/23/02      207L1         41&42, and       Capital Facility to Northern Virginia Processing      $155,779     $12,982        $142,797
                           43&44, or        and Distribution Center and Return
                           45&46
7/1/01       207LE         15&16            Capital Facility to Bronx Facility and Return          115,698      12,855         102,843
7/1/01       21033         1&2, or 3&4,     Linthicum Processing and Distribution Facility to       83,316       9,257          74,059
                           or5&6            Riderwood/Butler Facilities and Return
7/1/01       21036         41&42, or        Linthicum Processing and Distribution Facility to       21,231       2,359          18,872
                           43&44            Bel Air Facility and Return
7/1/01       21036         65&66, or        Linthicum Processing and Distribution Facility to      122,985      13,665         109,320
                           67&68            Bel Air Facility and Return
7/1/01       21037         47&48, or        Linthicum Processing and Distribution Facility to       10,365       1,152           9,213
                           57&58            Elkridge Facility and Return
7/1/01       21038         9&10, or         Linthicum Processing and Distribution Facility to       73,440       8,160          65,280
                           11&12, or        Randallstown Facility and Return
                           13&14
7/1/01       21038         87&88, or        Linthicum Processing and Distribution Facility to      112,113      12,457          99,656
                           89&90            Reistertown Facility and Return
7/1/01       21038         73&74, or        Linthicum Processing and Distribution Facility to       97,773      10,864          86,909
                           75&76            Owings Mills Facility and Return
             Total          20 Trips                                                              $792,700     $83,751        $708,949




                                                                    5
Highway Network Scheduling – Capital Metro Area                                                                 TD-AR-03-007




                         APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                  WHICH AREA MANAGERS DISAGREED
Effective
Date of
Last           Highway                                                                          Estimated                Estimated
Contract       Contract                                                                         Contract     Indemnity   Cost
Change         Route           Trip Number        Origin/Destination                            Costs        Fees        Savings
5/18/02        20110           45&46, or          Dulles Processing and Distribution Center        $17,672      $1,473         $16,199
                               47&48              to Sully Station Facility and Return
5/18/02        20110           51&52, or          Dulles Processing and Distribution Center         10,744         895           9,849
                               53&54              to Northern Virginia Processing and
                                                  Distribution Center and Return
7/1/01         20731           5&6, or 7&8        Southern Maryland Processing and                  97,608      10,845          86,763
                                                  Distribution Center to Suburban Maryland
                                                  Processing and Distribution Center and
                                                  Return
7/1/00         20810           5&6                Suburban Maryland Processing and                  65,128       5,427          59,701
                                                  Distribution Center to Baltimore
                                                  Processing and Distribution Center and
                                                  Return
7/1/01         21030           23&24, or          Linthicum Processing and Distribution             46,923       5,214          41,709
                               25&26              Facility to Magothy Bridge Delivery
                                                  Destination Unit and Return
7/1/01         21036           17&18, or          Linthicum Processing and Distribution            155,352      17,261         138,091
                               23&24              Facility to Whiteford Facility and Return
7/1/01         21038           79&80              Linthicum Processing and Distribution             93,327      10,370          82,957
                                                  Facility to Reistertown Facility and Return

               Total           14 Trips                                                          $486,754      $51,485     $435,269




                                                                      6
Highway Network Scheduling – Capital Metro Area       TD-AR-03-007




                APPENDIX C. MANAGEMENT’S COMMENTS




                                                  7
